No. 19-10522-DD
IN THE
SUPREME COURT OF THE UNITED STATES
Michael Bennett
Plaintiff-Petitioner
VS.
Marvel Entertainment
Defendant-Respondent
Mark Millar
Defendant- Respondent
PROOF OF SERVICE
do swear or declare that on this date,

I,

lho<\

~7

, 2020, as required by Supreme Court Ride 291 have
served 3'copies of my PETITION FOR A WRIT OF CERTIORARI to Marvel
Entertainment LLC, Mark Millar and Marvel Entertainment’s Parent company The
Walt Disney Company’s counsel Alston & Bird, by depositing an envelope
containing the above documents in the United States mail properly addressed to
Alston & Bird and with priority postage prepaid.
The names and address of those served are as followed:
Alston & Bird
Attention: Mr. Jason Rosenberg
One Atlantic Center
1201 West Peachtree Street
Atlanta, Georgia 30309-3424
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

r\(7\; ~~1

2020

RECEIVED
MAY 13 2020

®8|2S2iSSS.

